Case: 19-2880

Document: 51

Page: 1

Date Filed: 05/11/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2880
UNITED STATES OF AMERICA
v.

CHRISTOPHER WELSHANS,
Appellant
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Criminal Action No. 2-15-cr-00015-001)
District Judge: Honorable Donetta W. Ambrose
Submitted Under Third Circuit L.A.R. 34.1(a)
Thursday, April 23, 2020
Before: PORTER, RENDELL, and FISHER,
Circuit Judges
(Filed: May 11,2020)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-2880

Document: 51

Page: 2

Date Filed: 05/11/2020

PORTER, Circuit Judge.
A jury convicted Christopher Welshans of possessing and distributing child
pornography. Welshans initially appealed his judgment of conviction, and we remanded
for resentencing. United States v. Welshans, 892 F.3d 566, 583 (3d Cir. 2018). The
District Court then held a resentencing hearing. The parties agreed that Welshans’s
sentencing range was 210 to 262 months’ imprisonment. But the District Court awarded
Welshans a five-offense-level downward variance because two enhancements
recommended by the Presentence Investigation Report did not “make [his] conduct [any]
more serious or offensive.” Appx 31; see also id. at 32. With that variance, the sentencing
range for Welshans became 121 to 151 months’ imprisonment.
The District Court then considered Welshans’s argument that his recent diagnosis
of autism warranted an additional downward variance. But the District Court declined to
give Welshans that additional downward variance and sentenced Welshans to 121
months’ imprisonment—the bottom of the reduced sentencing range. Welshans timely
appealed. Because the District Court did not abuse its discretion when it sentenced
Welshans, we will affirm.
On appeal, Welshans asserts that the District Court abused its discretion by not
granting the downward variance based on his recent autism diagnosis. In doing so, he
essentially challenges the substantive reasonableness of his sentence. We review the
substantive reasonableness of a sentence for abuse of discretion. See United States v.

1 The District Court had subject-matter jurisdiction under 18 U.S.C. § 3231. We have
appellate jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. § 3742.
2

Case: 19-2880

Document: 51

Page: 3

Date Filed: 05/11/2020

Woronowicz, 744 F.3d 848, 851 (3d Cir. 2014). “An abuse of discretion occurs only
[when] the district court’s decision is arbitrary, fanciful, or clearly unreasonable—in
short, [when] no reasonable person would adopt the district court’s view.” United States
v. Green, 617 F.3d 233, 239 (3d Cir. 2010) (internal quotation marks and citation
omitted). “[W]e continue to recognize that reasonableness is a range, not a point. As long
as a sentence falls within the broad range of possible sentences that can be considered
reasonable in light of the [18 U.S.C.] § 3553(a) factors, we must affirm.” United States v.
Wise, 515 F.3d 207, 218 (3d Cir. 2008) (internal quotation marks and citations omitted).
Accordingly, we will affirm a sentence as substantively reasonable “unless no reasonable
sentencing court would have imposed the same sentence on that particular defendant for
the reasons the [sentencing] court provided.” United States v. Tornko, 562 F.3d 558, 568
(3d Cir. 2009) (en banc).
The District Court gave due consideration to Welshans’s autism diagnosis when it
sentenced him. It “believe[d] that [his] diagnosis of Level 1 autism spectrum disorder
[was] relevant.” Appx 32 (emphasis added). The District Court then discussed at length
Welshans’s ability to function in society and all his various accomplishments despite his
diagnosis. It also acknowledged that incarceration can be difficult for people who suffer
from autism. Yet the District Court believed that “correctional treatment in the federal
correctional system . .. [would] benefit” Welshans. Id. at 34.
After carefully considering Welshans’s autism diagnosis, the District Court
declined to grant Welshans’s requested downward variance. It refused to grant the
downward variance “because of [his] history and characteristics, because [it was]
3

Case: 19-2880

Document: 51

Page: 4

Date Filed: 05/11/2020

concerned about protecting the public, because [it] want[ed Welshans] to have an
effective correctional treatment, and because of the nature and circumstances of this
offense, which ... [it] considered] to be very serious.” Id. at 36. Instead, the District
Court imposed a sentence at the bottom of the sentencing range that already included a
substantial downward variance.
Given the District Court’s thorough consideration of Welshans’s arguments
supporting his requested downward variance based on his autism diagnosis, we cannot
conclude that “no reasonable sentencing court would have imposed the same sentence on
[Welshans] for the reasons the [District [C]ourt provided.” Tomko, 562 F.3d at 568. Still,
Welshans argues that the District Court abused its discretion by “slighting” or “misweighing” the evidence about his autism diagnosis. See, e.g., Appellant’s Br. at 38. Yet
nothing about the District Court’s consideration of the evidence submitted by Welshans
was “arbitrary, fanciful, or clearly unreasonable.” See Green, 617 F.3d at 239 (citation
omitted). If anything, the District Court “thoroughly and thoughtfully” considered
Welshans’s arguments relating to his autism diagnosis before ultimately rejecting his
requested downward variance. See United States v. Dolehide, 663 F.3d 343, 349 (8th Cir.
2011). In sum, the District Court did not abuse its discretion by declining to grant
Welshans’s requested downward variance based on his autism diagnosis.

Because Welshans’s sentence “falls within the broad range of possible sentences
that can be considered reasonable,” see Wise, 515 F.3d at 218, we will affirm.

4

